                                                                         EMPLOYMENT AND TRAINING

U.S. Department of Labor                                                 ADMINISTRATION


                           Office of Inspector General—Office of Audit




                                                                         CONFLICT OF INTEREST COMPLAINT ON
                                                                         A JOB CORPS CENTER OPERATOR
                                                                         SUBCONTRACT AWARD HAD MERIT




                                                                                           Date Issued:   September 28, 2012
                                                                                        Report Number:      26-12-004-03-370
U.S. Department of Labor                                  September 2012
Office of Inspector General
Office of Audit
                                                          CONFLICT OF INTEREST COMPLAINT ON A
                                                          JOB CORPS CENTER OPERATOR

BRIEFLY…                                                  SUBCONTRACT AWARD HAD MERIT

Highlights of Report Number 26-12-004-03-370, issued      WHAT OIG FOUND
to the Assistant Secretary for Employment and Training.   The OIG found the complaint had merit. ResCare’s
                                                          subcontract award to HLS violated the Contractor Code
WHY READ THE REPORT                                       of Business Ethics and Conduct, and competition
The Office of Inspector General (OIG) conducted a         requirements in the Federal Acquisition Regulation
performance audit in response to an anonymous             (FAR) as well as ResCare’s own procurement policies
complaint referred to us by the Employment and            and procedures. ResCare allowed an executive to
Training Administration (ETA), Office of Contracts        award the subcontract to a company owned and
Management. The complaint concerned a subcontract         operated by a subordinate, which raised significant
to provide academic and career technical training         conflict of interest concerns. ResCare did not advertise
services at the Homestead Job Corps Center                or open the subcontracting opportunity for competition
(Homestead), in Homestead, FL. Homestead is 1 of 14       to other subcontractors or justify the sole source
centers under 11 contracts with the Department of         procurement as required.
Labor (DOL) operated by the contractor ResCare, Inc.
(ResCare).                                                ResCare did not ensure Homestead obtained training
                                                          services that provided the greatest overall benefit for
The complaint alleged that an executive at ResCare        Job Corps’ at-risk youth at a fair price. ResCare’s
awarded a subcontract to Human Learning Systems           subcontract award to HLS violated the business ethics,
(HLS) in violation of government procurement              competition, and sole source justification requirements
requirements and that a subordinate ResCare executive     of the FAR; thus, it was an improper award. In
owned and operated HLS. ResCare awarded the HLS           accordance with the FAR regarding improper activities,
subcontract, valued at an estimated $8.4 million, in      we questioned the fees paid to HLS as part of its cost
November 2011 with services to begin in January 2012.     plus fees subcontract. These fees are claimed by
                                                          ResCare for reimbursement from the Federal
WHY OIG CONDUCTED THE AUDIT                               Government and will total approximately $385,000 if
We conducted the audit to determine the merit of the      HLS completes its subcontract.
complaint allegation relating to the ResCare
subcontract award to HLS for academic and career          WHAT OIG RECOMMENDED
technical training services at Homestead. Specifically,   The OIG recommended that: ETA recover the fees DOL
we sought to answer the following question:               has reimbursed ResCare for HLS’ services at
                                                          Homestead; take further remedial action as allowed by
Did the complaint alleging a ResCare executive            the FAR and the ResCare contract; review all future
awarded a Homestead education and training                ResCare subcontracts for procurement compliance and
subcontract to another ResCare executive without          ETA approval prior to award; ensure ResCare complies
required competition have merit?                          with its center operator contract provisions and its own
                                                          procurement policies and procedures; and implement
READ THE FULL REPORT                                      procedures for ensuring each subcontract issued by a
To view the report, including the scope, methodology,     Job Corps center operator is free of potential conflicts of
and full agency response, go to:                          interest. The Assistant Secretary for ETA accepted our
                                                          four recommendations and stated it will: disallow all
http://www.oig.dol.gov/public/reports/oa/2012/26-12-      costs associated with the HLS subcontract; withdraw
004-03-370.pdf.                                           ResCare’s purchasing system approval and require
                                                          ResCare to seek DOL Contracting Officer approval for
                                                          all subcontracts prior to execution; investigate and
                                                          consider initiating steps to suspend or debar both
                                                          ResCare and HLS including the principals involved;
                                                          strongly encourage ResCare to terminate the
                                                          subcontract with HLS; and require contractors to
                                                          document no conflict of interest. ResCare stated that it
                                                          will take corrective action, including re-procuring the
                                                          agreement for academic and career technical training
                                                          services.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                      Conflict of Interest Complaint

                                      Report No. 26-12-004-03-370

                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief.............................................................................................................. 2


Objective—Did the complaint alleging a ResCare executive awarded a Homestead

          education and training subcontract to another ResCare executive without

          required competition have merit? ................................................................. 4

         ResCare violated business ethics, competition, and sole source 

         justification requirements. ..................................................................................... 4


Recommendations ........................................................................................................ 8


Appendices
         Appendix A Background ..................................................................................... 11

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 13

         Appendix C Acronyms and Abbreviations .......................................................... 17

         Appendix D ETA's Response to Draft Report ..................................................... 19

         Appendix E ResCare's Response to Draft Report .............................................. 23

         Appendix F Acknowledgements ......................................................................... 33





                                                                                            Conflict of Interest Complaint

                                                                                            Report No. 26-12-004-03-370

             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                      Conflict of Interest Complaint

                                      Report No. 26-12-004-03-370

                                                       U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                             Office of Inspector General
                                                     Washington, D.C. 20210




September 28, 2012

                               Assistant Inspector General’s Report



Ms. Jane Oates
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, DC 20210


The Office of Inspector General (OIG) conducted a performance audit in response to an
anonymous complaint referred to us by the Employment and Training Administration’s
(ETA), Office of Contracts Management.1 The complaint alleged that an executive at
ResCare, Inc. (ResCare), the contracted operator for the Homestead Job Corps Center
(Homestead), awarded a subcontract to Human Learning Systems (HLS) in violation of
government procurement requirements and that a subordinate ResCare executive
owned and operated HLS. The HLS subcontract, valued at an estimated $8.4 million,
was to provide academic and career technical training at Homestead.2 ResCare
awarded the subcontract in November 2011 with services to begin in January 2012.

ResCare operated 14 Job Corps centers under 11 contracts with the Department of
Labor (DOL). ResCare’s purchasing system was reviewed and approved by DOL in
2010. As such, Homestead was required to submit only health and medical
subcontracts to ETA for consent prior to contract award. DOL consent for all other
subcontracts, including the HLS subcontract, was not required. In Program Year 2010
(ending June 30, 2011), the center graduated over 200 students from its academic
programs and over 300 students from its career technical training programs.

To address the allegation, we conducted an audit with the following objective:

        Did the complaint alleging a ResCare executive awarded a Homestead
        education and training subcontract to another ResCare executive without
        required competition have merit?




1
  The Job Corps program is administered by ETA. Within ETA, the program is managed by the Office of Job Corps
(Job Corps).
2
  The subcontract was for two base years plus three 1-year option years. The value for the two base years was $2.9
million and the value of the three option years will be based on a DOL provided inflationary rate.

                                                                                   Conflict of Interest Complaint
                                                         1                         Report No. 26-12-004-03-370
                                           U.S. Department of Labor – Office of Inspector General



We reviewed ResCare’s 2004, 2009, and 2011 Homestead center operator contracts
with the Department of Labor and the records for the HLS subcontract awarded in 2011.
As part of our audit work, we gathered information relevant to the facts and
circumstances surrounding the complaint allegations. As such, we reviewed information
pertaining to ResCare’s prior academic and career technical training subcontractor for
Homestead, Reaching Tomorrows Workforce (RTW). RTW was awarded subcontracts
in 2004 and 2009. We conducted audit work at ETA headquarters in Washington, DC
and at Homestead in Homestead, FL. See Appendix B for a detailed description of our
audit scope and methodology.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.


RESULTS IN BRIEF

The complaint had merit. ResCare’s subcontract award to HLS violated the Contractor
Code of Business Ethics and Conduct, and competition requirements in the Federal
Acquisition Regulation (FAR) as well as ResCare’s own procurement policies and
procedures. Practicing under a code of business ethics includes awarding subcontracts
that are free of conflicts of interest. ResCare, however, allowed an Executive Vice
President (VP) to award the subcontract to a company owned and operated by a
subordinate VP, which raised significant conflict of interest concerns. ResCare did not
advertise or open the subcontracting opportunity for competition to other subcontractors
or justify the sole source procurement as required.

ResCare initially claimed that its agreement with HLS was not subject to the FAR and its
own procurement policies because it was a partnership and not a
contractor/subcontractor relationship. However, the HLS agreement specifically states
that it was a contractor/subcontractor relationship and ResCare consistently referred to
HLS as a subcontractor in its communications with DOL. ResCare acknowledged during
the audit that its agreement with HLS was not a formal partnership.

The conflict of interest and lack of competition were caused by ResCare’s disregard of
the FAR and its own procurement policies and procedures. The ResCare executives
with corporate responsibility for ensuring compliance executed the improper HLS
subcontract. Homestead’s education and training programs were critical to the center’s
success in meeting Job Corps’ mission of providing quality training to at-risk youth.
However, ResCare did not ensure Homestead obtained training services that provided
the greatest overall benefit for these at-risk youth at a fair price. ResCare’s subcontract
award to HLS ResCare violated the business ethics, competition, and sole source
justification requirements of the FAR; thus it was an improper award. In accordance with

                                                                    Conflict of Interest Complaint
                                             2                      Report No. 26-12-004-03-370
                                                       U.S. Department of Labor – Office of Inspector General



the FAR regarding improper activities (52.203-10), we question the fees paid to HLS as
part of its cost plus fees subcontract.3 These fees are claimed by ResCare for
reimbursement from the Federal Government and will total approximately $385,000 if
HLS completes its subcontract.

We recommend that ETA recover the fees the Department has reimbursed ResCare for
HLS’ services at Homestead; take further remedial action as allowed by the FAR and
the ResCare contract; review all future ResCare subcontracts for procurement
compliance and ETA approval prior to award, and ensure ResCare complies with its
center operator contract provisions and its own procurement policies and procedures;
and implement procedures for ensuring each subcontract issued by a Job Corps center
operator is free of potential conflicts of interest.

ETA AND RESCARE’S RESPONSES

In its response to our draft report, ETA accepted our four recommendations and stated
it will disallow all costs associated with the HLS subcontract, including the fees;
investigate and consider initiating steps to suspend or debar both ResCare and HLS
including the principals involved; and withdraw ResCare’s purchasing system approval,
which will require ResCare to seek DOL Contracting Officer approval for all
subcontracts for each contract they operate prior to executing any subcontract; and
require contractors to document no conflict of interest. ETA will also strongly encourage
ResCare to terminate the subcontract with HLS; and either absorb the functions
internally, while they re-compete the requirement, or award to a different contractor with
which there is no conflict of interest. ETA’s response is included in its entirety at
Appendix D.

ResCare stated in its response that it did not intend to violate the Contractor Code of
Business Ethics and Conduct, competition requirements of the FAR, or ResCare
procurement policies and procedures; and instead, took steps to remove an
underperforming subcontractor at the direction of DOL, and under exigent
circumstances replaced the subcontractor with HLS. ResCare also stated that in light of
the OIG’s findings and to avoid any appearance of impropriety, it will take corrective
action, including re-procuring the agreement for academic and career technical training
services consistent with the Contractor Code of Business Ethics and Conduct, the FAR,
and ResCare’s policies and procedures. ResCare provided explanations of the steps it
took to remove the underperforming subcontractor and its corrective actions in its
response to our draft report. The response is included in its entirety at Appendix E.




3
  FAR Part 52, subpart 52.203-10 allows DOL to reduce the cost of a contract/subcontract by the amount of profit or
fee if the head of the contracting activity determines there was illegal or improper activity.

                                                                                    Conflict of Interest Complaint
                                                         3                          Report No. 26-12-004-03-370
                                            U.S. Department of Labor – Office of Inspector General




RESULTS AND FINDINGS

Objective—Did the complaint alleging a ResCare executive awarded a Homestead
          education and training subcontract to another ResCare executive
          without required competition have merit?

      ResCare violated business ethics, competition, and sole source justification
      requirements.

The complaint had merit. ResCare’s subcontract award to HLS violated the Contractor
Code of Business Ethics and Conduct, and competition requirements in the FAR as well
as ResCare’s own procurement policies and procedures. Practicing under a code of
business ethics includes awarding subcontracts that are free of conflicts of interest.
ResCare, however, allowed an Executive VP to award the subcontract to a company
owned and operated by a subordinate VP, which raised significant conflict of interest
concerns. Further, the subcontract was also awarded without competition or sole source
justification. As such, ResCare failed to ensure Homestead obtained training services
that provided the greatest overall benefit for Job Corps’ at-risk youth at a fair price. This
occurred because ResCare disregarded the FAR and its own procurement policies and
procedures. ResCare’s subcontract award to HLS violated the business ethics,
competition, and sole source justification requirements of the FAR; thus, it was an
improper award. In accordance with the FAR regarding improper activities, we question
the fees paid to HLS as part of its cost plus fees subcontract.

FAR and ResCare Policy Required Business Ethics and Competition

FAR Requirements

ResCare was required by its 2011 Homestead center operator contract to comply with
FAR section 52.203-13, Contractor Code of Business Ethics and Conduct. This FAR
section required ResCare to have a written code of business ethics and ensure
compliance with that code, including awarding subcontracts that are free of conflicts of
interest. The FAR also required ResCare to disclose to the OIG and the DOL
Contracting Officer (CO) if it had evidence of a violation of federal criminal law involving
a conflict of interest. ResCare was also required to comply with FAR sections 52.244-2,
Subcontracting and 52.244-5, Competition in Subcontracting. These sections prescribe
the contractor’s responsibilities when subcontracting to include the requirement to select
subcontractors on a competitive basis to the maximum practical extent.

ResCare Policy Requirements

ResCare’s Code of Business Ethics and Conduct specifically prohibited an officer or
employee from participating in the selection, award, or administration of a procurement
under the center contract where an individual has a financial interest in any organization
considered for award. In addition, the ResCare Procurement/Property Operations

                                                                     Conflict of Interest Complaint
                                              4                      Report No. 26-12-004-03-370
                                          U.S. Department of Labor – Office of Inspector General



Manual and Homestead Standard Operating Procedures (SOP) both provided detailed
guidance requiring competition or sole source justification:

Competition

   	 ResCare Procurement/Property Operations Manual (PRC 4010, Procurement) -
      Effective competition will constitute the basic principle of procurement and that
      effective procurement planning, source selection, and award are mandatory to
      provide material and services of quality and quantity at the lowest cost obtainable
      in adherence with ethical practices, contract stipulations, and government
      statutes and directives.

   	 Homestead Procurement Procedures (Subsection 1.A) - It is the intent of
      Homestead to procure all goods and services through competitive means when
      utilizing subcontractors with most procurement of goods and services for the
      center being done on-site. Purchases $25,000 and above require approval by the
      Center Director, Director of Admin Services, and Corporate Procurement Office.

Sole Source Justification

   	 ResCare Procurement/Property Operations Manual (PRC 4250, Sole Source) -
      The sole source requestor must provide a narrative that provides definitive
      information relating to the unique circumstances of the required goods or
      services (i.e., specific technical requirements), reasons for selection without
      competition, and a Justification and Approval Form.

   	 Homestead Procurement Procedures (Subsection 7) - Sole source procurement
      is the responsibility of the Buyer and requestors are asked to avoid calling for
      sole source on the requisition. When other than a low bidder is recommended,
      the Buyer must document the justification for selection by a written statement
      giving the reason. The recommendation must be approved by the Center
      Director.

ResCare’s Subcontract Award to HLS Violated Business Ethics and Competition
Requirements

ResCare’s subcontract award to HLS violated the business ethics and competition
requirements in FAR, and its own center operator contract provisions, Code of Business
Ethics and Conduct, and procurement policies and procedures. Significant events
related to the subcontract award are as follows:

   	 The Executive VP was the subordinate VP’s immediate supervisor.

   	 The subordinate VP started HLS in 2011 and was the company’s Chief Executive
      Officer (CEO). The Executive VP and his subordinate VP discussed the potential
      for HLS providing Homestead’s academic and career technical training prior to

                                                                   Conflict of Interest Complaint
                                           5                       Report No. 26-12-004-03-370
                                                    U.S. Department of Labor – Office of Inspector General



        the subcontract award. The Executive VP selected HLS without competition or
        sole source justification and forwarded his selection through his chain of
        command for approval.

    	 The Executive VP obtained approval for the HLS subcontract and signed the
       subcontract on November 29, 2011.

    	 The subordinate VP was a ResCare employee when he signed the subcontract
       (as HLS CEO) on November 28, 2011, and also when it became effective on
       January 1, 2012. His resignation from ResCare was effective on January 2,
       2012.

    	 ResCare notified its DOL CO that it was terminating the services provided by the
       previous subcontractor, RTW, and entering into a subcontract with HLS on
       December 2, 2011, after the subcontract was awarded to HLS.4 ResCare
       requested and received consent for the HLS subcontract, even though consent
       was not required because ResCare had an approved purchasing system.
       ResCare did not disclose the conflict of interest in its request.

ResCare acknowledged to OIG that it awarded the HLS subcontract to a company
operated by a ResCare employee without competition or sole source justification.
However, ResCare initially told OIG that its agreement with HLS was not subject to FAR
and its own procurement policies because it was a partnership and not a
contractor/subcontractor relationship. This claim was not valid because the HLS
agreement specifically stated that it was a contractor/subcontractor relationship and
ResCare consistently referred to HLS as a subcontractor in its communications with
DOL. ResCare subsequently acknowledged to OIG that its agreement with HLS was not
a legal partnership.

ResCare also told us it had to act quickly to replace RTW as its academic and career
technical training subcontractor for Homestead due to RTW’s declining performance.
ResCare said RTW’s poor performance jeopardized the academic and career technical
training services provided to Homestead students and threatened ResCare’s
performance as the prime contractor for Homestead. In response to our report, ResCare
asserted that it advised its DOL CO of the VP’s employment relationship to ResCare
and HLS prior to the HLS subcontract award and received the DOL CO’s verbal
authorization to proceed with the award. The DOL CO stated in a written declaration
provided to OIG that she did not provide verbal authorization as claimed and she did not
know the VP was still employed by ResCare at the time of her written HLS subcontract
approval.

ResCare’s actions violated its center operator contract provisions requiring compliance
with FAR sections 52.244-2, 52.244-5 and 52.203-13. Specifically, ResCare did not
award the subcontract on a competitive basis to the maximum extent practical as bids
4
 ResCare allowed RTW to operate for 5 months at Homestead without a subcontract and only terminated RTW’s
services when the HLS subcontract became effective.

                                                                              Conflict of Interest Complaint
                                                     6                        Report No. 26-12-004-03-370
                                            U.S. Department of Labor – Office of Inspector General



were not solicited from other subcontractors. ResCare also did not comply with its Code
of Business Ethics and Conduct as required by FAR. The code prohibited the
subordinate VP from participating in the selection, award, and administration of the
subcontract because he had a financial interest in HLS and was a ResCare employee
when the subcontract was awarded and went into effect. ResCare also did not disclose
to the OIG and DOL CO that it had evidence of a conflict of interest. ResCare senior
management was aware and had documentation (e.g., the HLS subcontract) that the
subcontract was awarded to a company owned and operated by a ResCare employee,
and was thereby a conflict of interest.

ResCare also failed to comply with its corporate procurement guidance and
Homestead’s SOPs. Both required either competition or sole source justification when
subcontracting. Additionally, the Executive VP’s awarding of the subcontract was not
consistent with Homestead’s SOPs, which stated that most procurement of goods and
services for the center would be done on-site. The award of the HLS subcontract
without Homestead’s involvement by-passed the center’s controls over procurement
including supervisory oversight (approval required by Center Director and Director of
Administrative Services) and segregation of duties (separation of solicitation, bid
evaluation and award decision responsibilities).

Disregard of the FAR and ResCare Policy Caused Non-Compliance

The business ethics violations and lack of competition were caused by ResCare’s
disregard of the FAR and its own Code of Business Ethics and Conduct and
procurement policies and procedures. ResCare senior management, including the
Executive VP and his subordinate VP, had corporate responsibility for ensuring
compliance. Instead they executed the HLS subcontract despite the conflict of interest
and without the required competition or sole source justification.

As a result of our audit, ETA issued a memorandum on July 6, 2012, to all its center
operators that informed them of their responsibilities to prevent conflicts of interest and
the requirements for competition. ETA stated that subcontract awards to a company
owned by a former employee may constitute an ethics violation, particularly if the
company had an unfair advantage over other prospective subcontractors or if the
subcontract was awarded on a sole source basis. In addition, failure to adhere to FAR
sections 52.244-2, 52.244-5 and 52.203-13 constitutes default under the center
operator contract and ETA may take remedial action including documenting the default
in the center operator’s past performance record, rescinding approval of an approved
purchasing system, and seeking the suspension and/or debarment of the center
operator. Further, a center operator may be suspended and/or debarred for failure to
timely disclose to the Government, in connection with a subcontract award, credible
evidence of a violation of Federal criminal law involving fraud, conflict of interest,
bribery, or gratuity violations found in Title 18 of the United States Code or a violation of
the civil False Claims Act.




                                                                     Conflict of Interest Complaint
                                              7                      Report No. 26-12-004-03-370
                                                       U.S. Department of Labor – Office of Inspector General



Homestead’s academic and career technical training programs were critical to the
center’s success in meeting Job Corps’ mission of providing quality training to at-risk
youth. However, ResCare did not ensure Homestead obtained training services that
provided the greatest overall benefit for these at-risk youth at a fair price. Additionally,
the subcontract award to HLS violated business ethics, competition, and sole source
justification requirements of the FAR; thus, it was an improper award. In accordance
with the FAR guidance regarding improper activities (Section 52.203-10), we question
the fees paid to HLS as part of its cost plus fees subcontract.5 These fees are claimed
by ResCare for reimbursement from the Federal Government and will total
approximately $385,000 if HLS completes its subcontract.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training require the
Regional Job Corps Office and ETA CO to:

    1.	 Recover the fees the Department has reimbursed ResCare for HLS’ services at
        Homestead;

    2.	 Take further action against the individuals and companies involved as allowed by
        the FAR and ResCare’s contract;

    3.	 Review all future ResCare subcontracts for procurement compliance and ETA
        approval prior to award, and ensure ResCare complies with its center operator
        contract provisions and its own procurement policies and procedures; and

    4.	 Implement procedures for ensuring each subcontract issued by a Job Corps
        center operator is free of potential conflicts of interest, such as a conflict of
        interest certification or other documentation to demonstrate no conflict of interest
        exists.

We appreciate the cooperation and courtesies that ETA, Job Corps, Homestead, and
ResCare personnel extended to the Office of Inspector General during this audit. We
listed OIG personnel who made major contributions to this report in Appendix F.




Elliot P. Lewis
Assistant Inspector General
 for Audit



5
  FAR Part 52, subpart 52.203-10 allows DOL to reduce the cost of a contract/subcontract by the amount of profit or
fee if the head of the contracting activity determines there was illegal or improper activity.

                                                                                    Conflict of Interest Complaint
                                                         8                          Report No. 26-12-004-03-370
              U.S. Department of Labor – Office of Inspector General




Appendices





                                       Conflict of Interest Complaint
               9                       Report No. 26-12-004-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                      Conflict of Interest Complaint
              10                      Report No. 26-12-004-03-370
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix A
Background

ETA oversees Job Corps, which administers and manages the Job Corps program. Job
Corps' mission is to attract eligible young people, teach them the skills they need to
become employable and independent, and place them in meaningful jobs or further
education. Job Corps administers the Job Corps program under the leadership of the
National Director, supported by the national office of Job Corps and a field network of
six regional offices. The Job Corps program provides education, training, and support
services to students at 125 Job Corps center campuses located throughout the United
States and Puerto Rico. Private contractors and other Federal Agencies operate centers
for DOL through competitive contracting processes and interagency agreements,
respectively.

ResCare is the contracted operator of Homestead. The center had over 300 students
that completed career technical training programs and over 200 students that completed
academic programs during Program Year 2010 (ending June 30, 2011). ResCare’s
headquarters are in Louisville, KY. ResCare operated 14 Job Corps centers under 11
contracts with DOL.




                                                                  Conflict of Interest Complaint
                                          11                      Report No. 26-12-004-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                      Conflict of Interest Complaint
              12                      Report No. 26-12-004-03-370
                                                      U.S. Department of Labor – Office of Inspector General



                                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our objective was to determine if the allegations had merit. To address the allegations,
we answered the following question:

        Did the complaint alleging a ResCare executive awarded a Homestead
        education and training subcontract to another ResCare executive without
        required competition have merit?

Scope

The OIG conducted a performance audit in response to an anonymous complaint
referred to us by ETA, Office of Contracts Management. The complaint alleged that an
executive at ResCare, Inc., the contracted operator for Homestead, awarded a
subcontract to HLS in violation of government procurement requirements and that a
subordinate ResCare executive owned and operated HLS. HLS’ subcontract, valued at
an estimated $8.4 million, was to provide academic and career technical training at
Homestead.6 ResCare awarded the subcontract in November 2011 with services to
begin in January 2012.

This report reflects the audit work conducted to determine the merit of hotline complaint
allegations against ResCare. We limited our audit coverage to the areas addressed in
the complaint and restricted our testing to audit procedures necessary to fulfill the
audit’s objective. During the course of our audit work, we determined that issues similar
to those identified in this hotline complaint might have also occurred with ResCare’s
award to RTW, which was the prior subcontractor for academic and career technical
training services at Homestead. Based on this information, we determined that we
should include a review of RTW’s subcontracts in this audit. We conducted our fieldwork
at the Homestead Job Corps Center from March 12-15, 2012. We conducted additional
fieldwork at our San Francisco, CA, and Washington, DC, offices from May through
August 2012.

We conducted this audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




6
 The subcontract was for two base years plus three 1-year option years. The value for the two base years was $2.9
million and the value of the three option years will based on a DOL provided inflationary rate.

                                                                                  Conflict of Interest Complaint
                                                        13                        Report No. 26-12-004-03-370
                                            U.S. Department of Labor – Office of Inspector General



Methodology

We conducted work to determine the merit of the complaint allegation relating to the
ResCare subcontract award to HLS for academic and career technical training services
at Homestead. To accomplish our audit objective, we obtained an understanding of
applicable laws, regulations, and Job Corps policies and procedures. In addition, we
interviewed ETA officials, Homestead management and staff, and ResCare executives;
reviewed ResCare’s Homestead operator contract provisions, Procurement/Property
Operations Manual, Homestead SOPs, and the HLS and RTW subcontracts. Our audit
covered ResCare’s subcontract awards to HLS in 2011 and RTW in 2004 and 2009.

Additionally, we performed the following specific audit procedures:

   	 We tested the HLS and RTW subcontracts for compliance with applicable
      sections of the FAR, ResCare’s Homestead Center Operator contracts, ResCare
      corporate policies and Homestead’s SOPs.

      We determined the extent to which ResCare employed HLS officials involved in
       the procurements for HLS by reviewing:
          ­ ResCare records for the HLS subcontracts to identify the ResCare officials
              involved in the HLS procurement processes.
          ­ HLS employment contracts and the relevant ResCare resignation letters.

   	 We determined questioned costs by reviewing relevant FAR criteria and

      analyzing the HLS subcontract.

         ­ FAR Part 52, subpart 52.203-10 allows DOL to reduce the cost of a
             contract/subcontract by the amount of profit or fee if the head of the
             contracting activity determines there was illegal or improper activity.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases and evaluated relevant controls. Our consideration of
these controls would not necessarily disclose all matters that might be reportable
conditions. In addition, inherent limitations of internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected.

Questioned Cost Calculations

HLS Subcontract

In accordance with FAR Subpart 52.203-10—Price or Fee Adjustment for Illegal or
Improper Activity, we questioned up to $385,000 for the fees specified in the HLS
subcontract. We calculated these fees as follows:




                                                                     Conflict of Interest Complaint
                                             14                      Report No. 26-12-004-03-370
                                                        U.S. Department of Labor – Office of Inspector General



Base Year 1 Fees: $48,823
Base Year 2 Fees: $83,981
Option Year 1 - 3 Fees (based on Base Year 2 Fees): $ 251,943 (83,981 X 3)
Total: $ 384,747 (rounded to $385,000)7

Criteria

We used the following criteria to perform this audit:

        Federal Acquisitions Regulations

             ­    Subpart 44.3, Contractors’ Purchasing Systems Reviews
             ­    Subpart 52.244-2, Subcontracting
             ­    Subpart 52.244-5, Competition in Subcontracting
             ­    Subpart 52.203-13, Contractor Code of Business Ethics and Conduct
             ­    Subpart 52.203-10, Price or Fee Adjustment for Illegal or Improper Activity

        ETA Memorandum, Proper Subcontracting Practices, July 6, 2012
        Job Corps’ Policy and Requirements Handbook
        Homestead Standard Operating Procedures
        ResCare Procurement/Property Operations Manual
        ResCare Operator Contracts for Homestead (2004, 2009, and 2011)
        Reaching Tomorrow’s Workforce Subcontracts for Homestead (2004, 2009)
        Human Learning Systems Subcontract for Homestead (2011)




7
 The subcontract was for two base years plus three 1-year option years. The value of the three option years will be
based on a DOL provided inflationary rate.

                                                                                    Conflict of Interest Complaint
                                                         15                         Report No. 26-12-004-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                      Conflict of Interest Complaint
              16                      Report No. 26-12-004-03-370
                                      U.S. Department of Labor – Office of Inspector General



                                                                             Appendix C
Acronyms and Abbreviations



CEO             Chief Executive Officer

CO              Contracting Officer

DOL             U.S. Department of Labor

ETA             Employment and Training Administration

FAR             Federal Acquisition Regulation

Homestead       Homestead Job Corps Center, Homestead, FL

HLS             Human Learning Systems

Job Corps       Office of Job Corps

OIG             Office of Inspector General

ResCare         ResCare, Inc.

RTW             Reaching Tomorrows Workforce

SOP             Standard Operating Procedures

VP              Vice President




                                                               Conflict of Interest Complaint
                                       17                      Report No. 26-12-004-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                      Conflict of Interest Complaint
              18                      Report No. 26-12-004-03-370
                                 U.S. Department of Labor – Office of Inspector General



                                                                        Appendix D
ETA's Response to Draft Report




                                                          Conflict of Interest Complaint
                                  19                      Report No. 26-12-004-03-370
U.S. Department of Labor – Office of Inspector General




                         Conflict of Interest Complaint
 20                      Report No. 26-12-004-03-370
U.S. Department of Labor – Office of Inspector General




                         Conflict of Interest Complaint
 21                      Report No. 26-12-004-03-370
U.S. Department of Labor – Office of Inspector General




                         Conflict of Interest Complaint
 22                      Report No. 26-12-004-03-370
                                     U.S. Department of Labor – Office of Inspector General



                                                                            Appendix E
ResCare's Response to Draft Report




                                                              Conflict of Interest Complaint
                                      23                      Report No. 26-12-004-03-370
U.S. Department of Labor – Office of Inspector General




                         Conflict of Interest Complaint
 24                      Report No. 26-12-004-03-370
U.S. Department of Labor – Office of Inspector General




                         Conflict of Interest Complaint
 25                      Report No. 26-12-004-03-370
U.S. Department of Labor – Office of Inspector General




                         Conflict of Interest Complaint
 26                      Report No. 26-12-004-03-370
U.S. Department of Labor – Office of Inspector General




                         Conflict of Interest Complaint
 27                      Report No. 26-12-004-03-370
U.S. Department of Labor – Office of Inspector General




                         Conflict of Interest Complaint
 28                      Report No. 26-12-004-03-370
U.S. Department of Labor – Office of Inspector General




                         Conflict of Interest Complaint
 29                      Report No. 26-12-004-03-370
U.S. Department of Labor – Office of Inspector General




                         Conflict of Interest Complaint
 30                      Report No. 26-12-004-03-370
U.S. Department of Labor – Office of Inspector General




                         Conflict of Interest Complaint
 31                      Report No. 26-12-004-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                      Conflict of Interest Complaint
              32                      Report No. 26-12-004-03-370
                                        U.S. Department of Labor – Office of Inspector General



                                                                                Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Heather T. Atkins
(Audit Manager), Ann Marie Lawrence (Acting Auditor-In-Charge), and Elizabeth Garcia
(Auditor).




                                                                 Conflict of Interest Complaint
                                         33                      Report No. 26-12-004-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                      Conflict of Interest Complaint
              34                      Report No. 26-12-004-03-370
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone: 	    1-800-347-3756
                202-693-6999

Fax: 	          202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor

         200 Constitution Avenue, N.W.

         Room S-5506

         Washington, D.C. 20210

